                                                          IG-00-060




AUDIT
                              CONFIGURATION CONTROLS IN
REPORT                          DESKTOP OUTSOURCING

                                   September 29, 2000




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CIO       Chief Information Officer
IT        Information Technology
JPL       Jet Propulsion Laboratory
ODIN      Outsourcing Desktop Initiative for NASA
W                                                                                       September 29, 2000


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: Configuration Controls in Desktop Outsourcing
                   Report Number IG-00-060


The NASA Office of Inspector General has completed an audit of NASA’s configuration
controls in desktop outsourcing. We found that the desktop seat1 prices at the Jet Propulsion
Laboratory (JPL) significantly exceeded those paid by other NASA installations using the
Outsourcing Desktop Initiative for NASA (ODIN) contract. Because the JPL outsourcing
contract was based on adequate price competition, we did not question the basis of JPL’s
desktop seat prices. However, if JPL uses the ODIN contract to acquire desktop services
after its current contract expires, NASA could avoid costs of as much as $33 million over a 3-
year period. We also found that NASA had not assessed the effectiveness of the installation-
wide2 or installation-component3 approaches used by the installations in making desktop seat
assignments and had not issued guidance for determining seat selections. Accordingly, NASA
lacks assurance that it has assigned seats to employees in the most efficient and effective
manner.

Background

In 1996, NASA chartered the ODIN to develop an outsourcing arrangement that provides
support for the majority of NASA’s desktop and intra-installation communication systems. In
1998, NASA awarded a master ODIN contract to seven companies. Each NASA installation
or Enterprise4 may select any one of the seven companies to provide desktop, server, and intra-
installation communication services. Also in 1998, JPL awarded a separate outsourcing
contract to acquire similar services.

1
  A seat is the hardware, software, and maintenance required to support the user of one desktop computer.
2
  Installations specify one or more desktop seats as the standard seat(s) for all installation employees.
3
  Managers in various organizational components assign seats to the installation employees.
4
  NASA established four strategic Enterprises, each covering a major area of the Agency's research and development
efforts. The Enterprises are: Aerospace Technology, Earth Science, Human Exploration and Development of Space,
and Space Science. NASA is creating a fifth Enterprise, Fundamental Space Research, from elements under the Human
Exploration and Development of Space Enterprise.
                                                                                               2

Recommendations

We recommended that the Associate Administrator for Space Science ensure that JPL includes
ODIN among competitors when awarding the installation’s future desktop
outsourcing contract. NASA could avoid significant costs if ODIN is included among
competitors for JPL's next outsourcing contract. We also recommended that the NASA Chief
Information Officer (CIO) direct the ODIN Program manager to assess the effectiveness of the
two seat assignment approaches and to issue guidance to all installations for use in selecting an
appropriate approach. The assessment and guidance will help ensure effective and efficient seat
assignments.

Management Response and OIG Evaluation

Management concurred with the findings and recommendations. The Associate Administrator
for Space Science agreed that JPL should consider ODIN among competitors for future
desktop outsourcing and has obtained JPL’s commitment to including ODIN in the next
competition. Management stated it was unable to comment on the estimated $33 million of
funds that could be put to better use. Also, the NASA CIO has directed the ODIN Program
Manager to assess the effectiveness of the seat assignment approaches and to develop a
guidance document that installations may use for determining their seat selection approach.

Although management agreed to consider ODIN among competitors for future desktop
outsourcing, management did not explain why it could not comment on the $33 million of funds
that could be put to better use. Therefore, we request that management comment on the
potential monetary benefits in reponse to the final report.

Details on the status of the recommendations are in the Findings section of the report.


[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of Configuration Controls
 in Desktop Outsourcing
           FINAL REPORT
AUDIT OF CONFIGURATION CONTROLS IN
       DESKTOP OUTSOURCING
W                                                                          September 29, 2000


TO:              S/Associate Administrator for Space Science
                 AO/Chief Information Officer

FROM:            Assistant Inspector General for Auditing

SUBJECT:         Final Report on Audit of Configuration Controls in
                 Desktop Outsourcing
                 Assignment Number A0000800
                 Report Number IG-00-060


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Your comments on a draft of this report were responsive; however, we
request that management provide comments on the potential monetary benefits in response to
the final report. For recommendation 2, we request that you notify us of the actions taken,
including the extent of testing performed to ensure corrective actions are effective. The
recommendations will remain open for reporting purposes.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-2672, or Mr. Roger Flann,
Program Manager, at (818) 354-9755. We appreciate the courtesies extended to the audit
staff. The final report distribution is in Appendix G.


[Original signed by]

Russell A. Rau

Enclosure
                                                     2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations , 2

     Finding A. Desktop Seat Prices at JPL, 2

     Finding B. ODIN Desktop Seat Assignment Approaches, 5

Appendix A - Objective, Scope, and Methodology, 7

Appendix B – Calculation of Potential Funds
             That Could Be Put To Better Use, 9

Appendix C - Comparison of Similar JPL and ODIN Desktop Seats, 10

Appendix D - Desktop Outsourcing Contract at JPL, 11

Appendix E - Summary of Prior Audit Coverage, 12

Appendix F - Management’s Response, 13

Appendix G - Report Distribution, 15
                              NASA Office of Inspector General

IG-00-060                                                                                 September 29, 2000
 A0000800

                   Configuration Controls in Desktop Outsourcing

                                           Executive Summary

Background. NASA chartered the Outsourcing Desktop Initiative for NASA ODIN in
December 1996 to develop an outsourcing arrangement that provides support for the majority
of NASA’s desktop and intra-installation communication systems. One of the ODIN
objectives was to facilitate management of information technology resources.

In 1998, NASA awarded to seven companies a master ODIN contract with a total estimated
value of at least $4 billion over 9 years.5 Each NASA installation or Enterprise may select any
one of the seven contractors to provide desktop, server, and intra-installation communication
services. The contractors will provide the services on a per seat basis. Also in 1998, the JPL,
a Federally funded Research and Development Center managed by NASA through a contract
with the California Institute of Technology, awarded a separate 5-year, $110 million contract to
acquire desktop and network services.

Objective. Our overall audit objective was to determine whether NASA installations were
effectively and efficiently meeting their employees' desktop seat configuration requirements.
Specifically, our objective was to determine whether installations were assigning desktop seat
configurations according to employee work requirements and whether contractors were
providing appropriate seat configurations. Details on our scope and methodology are in
Appendix A.

Results of Audit. Based on work performed at four NASA installations, we found no
indications that the reviewed installations had assigned seats that failed to satisfy employee work
requirements. Also, we found no indications that contractors had provided inappropriate seat
configurations. However, we identified two outsourcing issues:

     •    JPL’s seat prices significantly exceeded those paid by other NASA installations
          using the ODIN contract. If JPL uses the ODIN contract to acquire desktop services
          after its current contract expires, NASA could avoid costs of as much as $33 million
          over a 3-year period.



5
 The ODIN master contract’s period of performance is June 22, 1998, through June 21, 2007. The period of
performance of each delivery order shall not exceed 3 years; the delivery order may be renewed on a sole-source basis.
    •   NASA installations used either an installation-wide approach or an
        installation-component approach in assigning seats to their employees. For the
        installation-wide approach, installations specified one or more desktop seats as the
        standard seat(s) for all installation employees. For the installation-component approach,
        managers in various organizational components assigned seats to the installation
        employees. Though either approach may satisfy employee work requirements, NASA
        had not assessed the effectiveness of the two seat assignment approaches or issued
        guidance for determining seat selections. Without such an assessment, NASA lacks
        assurance that it has assigned seats in the most efficient and effective manner.

Recommendations. The Associate Administrator for Space Science should ensure that JPL
includes ODIN among competitors. Also, the NASA CIO should direct the ODIN Program
Manager to assess the effectiveness of the two seat assignment approaches and issue guidance
to all installations for use in selecting an appropriate seat assignment approach.

Management’s Response. Management concurred with both recommendations. The
Associate Administrator for Space Science has obtained JPL’s commitment to consider ODIN
among competitors for future desktop outsourcing. Management stated that it was unable to
comment on the estimated $33 million of funds that could be put to better use. Also, the NASA
CIO has directed the ODIN Program Manager to assess the effectiveness of the seat
assignment approaches and to develop a guidance document that installations may use for
determining their seat selection approach. The complete text of management’s response is in
Appendix F.

Evaluation of Management’s Response. The actions taken or planned by management are
responsive to the recommendations. However, we ask that management comment on the $33
million in potential monetary benefits in response to the final report. The recommendations will
remain undispositioned and open pending completion of the planned actions.




                                               ii
     ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                   DRAFT AUDIT REPORT
Introduction

ODIN contractors are responsible for providing and managing the majority of NASA’s
desktop, server, and communications assets and services. With respect to desktop computing,
the ODIN contractors shall provide services to NASA employees on a “per seat” basis. Seats
include the following components:

    •    Hardware and software, installation, and maintenance.
    •    System administration, relocation, and network access.
    •    Customer support and training.

NASA managers can assign employees any one of six desktop seats identified in the ODIN
master contract: General Purpose (GP) 1, 2, and 3 and Scientific and Engineering (SE) 1, 2,
and 3. The various desktop seats differ by hardware features including processor speed, hard
disk storage and memory, and monthly seat prices. Seat prices are fixed for the 3-year delivery
order period.

As of June 2000, NASA Headquarters and five installations 6 had awarded delivery orders for
desktop, server, and communications services. Four installations 7 plan to award delivery orders
during August through November 2000.

On February 11, 1998, about 4 months before NASA awarded the master ODIN contract,
JPL awarded a separate 5-year desktop outsourcing contract (see Appendix D) with a total
value of $110 million. Similar to the ODIN contractors, the JPL contractor is responsible for
providing JPL employees with desktop seats that include hardware, software, and service
support. The contractor bills JPL monthly on a per seat basis.




6
  The installations are Goddard Space Flight Center (Goddard), John F. Kennedy Space Center (Kennedy), Lyndon B.
Johnson Space Center (Johnson), George C. Marshall Space Flight Center (Marshall), and John C. Stennis Space Center
(Stennis).
7
  The installations are Ames Research Center (Ames), Dryden Flight Research Center (Dryden), John H. Glenn
Research Center (Glenn), and Langley Research Center (Langley).
Findings and Recommendations

Finding A. Desktop Seat Prices at JPL

The monthly seat prices of JPL’s outsourced desktop seats are significantly higher than
comparable desktop seats at the installations covered by ODIN. We do not question the basis
for the higher monthly seat prices because JPL awarded its contract based on adequate price
competition. Nonetheless, NASA may be able to put significant funds to better use if JPL uses
ODIN after the installation’s current desktop outsourcing contract expires in 2002. Funds that
could be put to better use over the 3-year life of an ODIN delivery order could total as much as
$33 million.


Management Controls

The Clinger-Cohen Act of 1996 gives the authority to acquire information technology8 (IT)
resources to each executive agency and makes each agency responsible for effectively managing
its IT acquisitions. Under the Act, the head of each executive agency shall design and
implement a process for maximizing the value and assessing and managing the risks of the IT
acquisitions. Management assessments of various outsourcing alternatives (for example, ODIN
or non-ODIN sources) would represent one form of management control for achieving
maximum value from IT acquisitions. JPL’s desktop outsourcing contract involves a significant
IT acquisition and, therefore, NASA should assure that JPL assesses whether ODIN is the
most cost-effective alternative for desktop outsourcing.


Comparison of Desktop Seat Prices

We performed two comparisons related to seat prices. First, we compared the actual average
seat prices at JPL with the (weighted9) actual average seat prices at Goddard, Johnson,
Kennedy, and Marshall (see Appendix B). The comparison showed that JPL is paying about
$11 million, or 78 percent, more per year under its current contract than other installations are
paying for ODIN desktop services, or about $33 million more over a 3-year ODIN delivery
order period. Second, we compared two similar desktop seat configurations, one from JPL
and the configuration of the installations covered by ODIN (see Appendix C). The two
desktop seats had similar hardware and software. Notwithstanding their similarities, JPL’s seat
price ($273 per month) was about 60 percent higher than the ODIN seat price ($171 per
month).


8
 The term “information technology” includes computers, software, services, and related resources.
9
 The weighted average cost equals the total invoice costs of all desktop seats at Goddard, Johnson, Kennedy, and
Marshall divided by the total number of desktop seats at those same installations.


                                                          2
Most of the difference in the seat prices is attributed to JPL’s higher service support cost.
Specifically, JPL’s service support cost per seat was $140, and the other installations’ average
service support cost per seat was $49. The difference per seat ($91) totals about $8.1 million
annually.10 The substantial difference between the JPL and the other installations’ service
support costs is not warranted based on the level of services provided by JPL’s outsourcing
contractor. To illustrate, the JPL contract provides a help desk that is available 24 hours per
day, 7 days per week. The ODIN help desks are available 12 hours per day (6:00 a.m. to
6:00 p.m.), 5 days per week. Notwithstanding the additional hours of service provided by the
JPL help desk, typically, only one contractor employee staffs the help desk during swing, night,
weekend, and holiday shifts. The annual cost of this one employee would account for only a
small fraction of the total $8.1 million annual difference between JPL's and the other
installations’ support service costs.

To determine whether other factors contributed to the substantially higher seat prices at JPL, we
compared seat specifications and dates of award for JPL and the other installations (see
Appendix C). We found no differences that would materially contribute to the higher seat
prices at JPL. Specifically, both the JPL and ODIN outsourcing contractors offered desktop
seats with essentially the same computer hardware (550 megahertz Intel-based processor),
software (standard application suites), and hardware refresh period (3 years).11 Additionally,
JPL awarded its desktop outsourcing contract only 8 months before NASA awarded its first
ODIN delivery order12 and, therefore, the time difference would have a minimal effect on seat
pricing levels.

The Deputy Manager, Institutional Computing and Information Services Office, JPL, offered no
explanation for the significantly higher desktop seat prices at JPL. He told us that JPL had
awarded the outsourcing contract based on adequate price competition. In this regard, our
review of the contract files showed that four vendors had submitted proposals to JPL for the
outsourcing contract. JPL asked two of the four vendors to perform due diligence reviews.
After JPL completed its analysis of the two vendors’ due diligence reviews, JPL awarded the
desktop outsourcing contract to one of the two vendors. We reviewed relevant JPL documents
and confirmed that JPL had awarded the outsourcing contract based on adequate competition.

NASA may be able to put significant funds to better use if JPL uses ODIN after JPL’s current
outsourcing contract expires in December 2002. NASA would be able to use the funds for
other programs.


10
   We calculated the total annual difference of $8.1 million as follows: ($140 - $49) X 12 months X 7,413 seats =
$8,094,996.
11
   The hardware refresh period is the length of time that the computer (furnished by the contractor as part of the
desktop seat) will be used before the contractor replaces it with a new computer. Replacement typically occurs every 3
years.
12
   JPL awarded its outsourcing contract in February 1998, and Goddard awarded its ODIN delivery order in October
1998.


                                                          3
Recommendation, Management’s Response, and Evaluation of
Response

1. The Associate Administrator for Space Science should ensure that JPL includes
   ODIN among competitors for future desktop outsourcing.

Management’s Response. Concur. Management agreed that JPL should consider ODIN
among competitors for future desktop outsourcing and has obtained JPL’s commitment to
including ODIN in the next competition. Management stated that it was unable to comment on
the report’s $33.6 million of funds that could be put to better use. The full text of management’s
response is in Appendix F.

Evaluation of Management’s Response. Management's action is responsive to the
recommendation. However, we request that management provide comments on the $33.6
million that can be put to better use in response to the final report. The recommendation will
remain open for reporting purposes.




                                                4
Finding B. ODIN Desktop Seat Assignment Approaches

NASA installations have used either an installation-wide or installation-component approach in
selecting ODIN desktop seats for their employees. Though either approach may satisfy
employee work requirements, the ODIN Program Office had not assessed the merits of the two
approaches or issued guidance on their use. The two approaches resulted from the installations’
discretion in making seat assignment decisions. Without an assessment of the two approaches
and appropriate guidance, NASA lacks assurance that it has assigned seats in the most efficient
and effective manner.

Management Controls

The Clinger-Cohen Act of 1996 gives each executive agency the authority to acquire IT
resources and makes each agency responsible for effectively managing them. Effective IT
management requires that the agency implement management controls to ensure the appropriate
acquisition and use of IT resources. With respect to ODIN, management controls are
necessary because ODIN involves a significant acquisition of IT resources. Management
assessments represent one form of management control and can be used to ensure that the
ODIN program acquires and manages desktop computing resources in the most cost-effective
manner.

Assignment of Desktop Seats to Employees

The NASA CIO has delegated overall ODIN program responsibility to the ODIN Program
Office at Goddard. In turn, the ODIN Program Office delegated the seat assignment
responsibility to the installations. The installations then used either an installation-wide or
installation-component approach in meeting their seat assignment responsibilities. Each
approach is discussed below.

   •   Installation-wide approach. Johnson, Marshall, and Kennedy used the
       installation-wide approach in assigning ODIN desktop seats to their employees. Each
       of the installations had specified one or more desktop seats as the standard seat(s) for
       all installation employees. (The installations may allow employees to use other seat
       configurations if the employees’ special work requirements justify a deviation from the
       standard seats.) Based on their analyses of employees’ desktop computing needs, the
       installation CIO’s concluded that the installation-wide approach was appropriate and
       satisfied the employees’ work requirements.

   •   Installation-component approach. Goddard used the installation-component
       approach in assigning ODIN desktop seats to its employees. Specifically, the
       installation delegated the seat assignment responsibility to managers (such as directors,
       division chiefs, and branch chiefs) in various organizational components. The ODIN
       Project Manager at Goddard stated that Goddard used


                                                5
        this approach because it believed the employees’ managers were most knowledgeable
        of employee work requirements. Accordingly, the managers were best qualified to
        select their employees' seats.

The ODIN Program Manager has not assessed the relative merits of each approach the
installations used to manage their desktop resources. A management assessment would identify
advantages and disadvantages of each seat assignment approach and would give the ODIN
Program Manager a basis for developing guidance for installations' use. Installations could use
the guidance for either initial or follow-on delivery orders.


Recommendation, Management’s Response, and Evaluation of
Response

2. The NASA CIO should direct the ODIN Program Manager to assess the
   effectiveness of the two seat assignment approaches and to issue guidance to all
   installations for their use in making appropriate seat assignments.

Management’s Response. Concur. The NASA CIO has directed the ODIN Program
Manager to assess the effectiveness of the seat assignment approaches and to develop a
guidance document that the installations may use for determining their seat selection approach
(see Appendix F). The NASA CIO stated that he would issue the guidance document by
March 31, 2001.

Evaluation of Management’s Response. Management's actions are responsive to the
recommendation. However, the recommendation will remain undispositioned and open pending
issuance of the guidance document.




                                               6
                  Appendix A. Objective, Scope, and Methodology

Objective

Our overall audit objective was to determine whether NASA installations were effectively and
efficiently meeting their employees' desktop seat configuration requirements. Specifically, we
determined whether:

     •   installations were assigning desktop seat configurations according to employee work
         requirements; and
     •   contractors were providing appropriate seat configurations.


Scope and Methodology

We performed work at Goddard, Johnson, Marshall, Kennedy, and JPL. Specifically, we:

     •   Reviewed the ODIN master contract and the JPL desktop outsourcing contract to
         understand the terms and conditions of these contracts relative to the announced audit
         objectives.
     •   Interviewed the Agencywide ODIN Program Manager to understand the role of the
         ODIN Program Office in determining the desktop seat configuration requirements of
         NASA employees.
     •   Interviewed NASA officials at the five NASA installations to identify the policies and
         procedures for assigning desktop seats to employees.
     •   Selected a judgmental sample of 75 ODIN seats at Johnson and Goddard. The sample
         seats represented 42 organizations. We then interviewed cognizant managers to
         determine their justifications for seat assignments.
     •   Analyzed the results of the judgmental sample to determine the propriety of the seat
         assignment process.
     •   Reviewed JPL’s process of awarding the desktop outsourcing contract to identify
         causes for the high desktop seat prices at JPL and to determine whether the installation
         had awarded the contract based on adequate price competition.
     •   Compared JPL’s average actual desktop seat costs to weighted13 average actual
         desktop seat costs at Goddard, Johnson, Kennedy, and Marshall, to determine the
         reasonableness of JPL’s desktop seat costs.
     •   Compared two similar desktop seats, one seat from JPL and another seat that was
         common to Johnson, Kennedy, and Marshall, to determine the reasonableness of JPL’s
         desktop seat costs. We selected these three installations because each used the same
         ODIN contractor and ODIN catalog.

13
 The weighted average cost equals the total invoice costs of all desktop seats at Goddard, Johnson, Kennedy, and
Marshall divided by the total number of desktop seats at those same installations.


                                                         7
Appendix A

Management Controls Reviewed

We reviewed management controls relating to JPL’s desktop seat prices (see Finding A).
Though we found these management controls adequate, the Associate Administrator for Space
Science should ensure that JPL assesses whether ODIN is the most cost-effective alternative
for JPL’s next desktop outsourcing contract. We also reviewed management controls relating
to NASA’s organizational structure for implementing the ODIN program. We considered
management controls to be adequate. However, NASA had not assessed the merits of the two
desktop seat assignment approaches (see Finding B).


Audit Field Work

We performed the audit field work from October 1999 through July 2000 at Goddard,
Johnson, Kennedy, Marshall, and JPL. We conducted the audit in accordance with generally
accepted government auditing standards.




                                             8
                      Appendix B. Calculation of Potential Funds
                          That Could Be Put to Better Use

Recommendation 1 results in a potential $33.6 million that NASA can put to better use as
shown in the calculation below. We made the calculation based on contractor invoices for
October 1999.

                                                                                                                All Four
                                                                                                                 ODIN
                                  JPL           Marshall        Kennedy         Johnson         Goddard         Centers

Total number of desktop
seats                            3,398           7,065           3,460           10,530          3,258          24,313

Total monthly invoice cost
for all seats                  $976,673        $1,272,119       $569,371      $1,674,443       $389,597       $3,905,530

Average actual seat price
per month                         $287            $180            $165            $159            $120           $161


The amount of potential funds that can be available for other use is based on the 7,413 desktop
seats that JPL was using in October 1999 (3,398 seats were outsourced to the contractor and
4,015 were Government-owned). We used the 7,413 seats for our calculation because they
represent the total number of desktop seats that JPL would eventually outsource.

Average actual seat price per month at JPL                                                                        $287
Average actual seat price (weighted1) per month at the four installations
 covered by ODIN                                                                                                  $161
JPL monthly seat price in excess of the ODIN monthly seat price                                                   $126
Potential monthly funds available for other use if JPL uses ODIN
 ($126 x 7,413 seats)                                                                                        $934,038
Potential annual funds available for other use use if JPL uses ODIN
 ($934,038 x 12 months)                                                                                   $11,208,456
Potential funds available for other use over a 3-year delivery order period2
 if JPL uses ODIN after JPL’s current outsourcing contract expires                                        O
 ($11,208,456 x 3 years).                                                                                 $33,625,3683
1
  We computed the weighted average cost of desktop seats by dividing the total invoice costs of all desktop seats at
Goddard, Johnson, Kennedy, and Marshall by the total number of desktop seats for the four installations.
2
  The 3-year delivery order period would be January 2003 through December 2005.
 3
   We based the $33,625,368 of potential funds available for other use on the assumption that JPL’s desktop seat prices
     and the number of seats for the 3-year delivery order period will be the same as the current seat prices and seat
                                                        quantity.




                                                            9
          Appendix C. Comparison of Similar JPL and ODIN Desktop Seats
                       (Based on Contractors’ Product Catalogs as of October 1999)

             Feature                               JPL                     ODIN Installations                    Difference

Most sophisticated standard           550 Megahertz Pentium III,       550 Megahertz Intel Xeon         The ODIN hardware has
desktop seat provided by contractor   384 megabyte random access       PIII, 512 megabyte random        more memory. Also, the
                                      memory, 9 gigabyte hard          access memory, 9 gigabyte        ODIN seat includes a 21”
                                      drive, 32 speed compact          hard drive, 32 speed             monitor, while the JPL seat
                                      disk.                            compact disk, 21” monitor.       includes no monitor.

Standard application software         Standard application             Standard application             None
                                      software suite (word             software suite (word
                                      processing, spreadsheet,         processing, spreadsheet,
                                      presentation graphics,           presentation graphics,
                                      e-mail, Internet, anti-virus).   e-mail, Internet, anti-virus).

Printer                               Not included in JPL's seat       ODIN's seat includes access      The ODIN seat includes a
                                      refreshment. Printer is an       to a networked black and         shared printer. The JPL seat
                                      optional peripheral.             white printer.                   has no printer.

Hardware technology refresh           Every 3 years                    Every 3 years                    None

Software technology refresh           Provided as part of “Normal      Provided as part of the          None
                                      Assistance Service.”             ODIN seat.

Maintenance support                   Includes hardware, system        Includes hardware, system        JPL’s Normal Assistance
                                      software, and application        software, and application        Service has a slightly better
                                      software support. “Normal        software support. Restores       turn-around time than
                                      Assistance Service” restores     service by close of next         ODIN’s maintenance
                                      service within 8 hours for       business day.                    support service.
                                      on-site assistance.

Contractor help desk                  Available 24 hours a day, 7      Available from 6:00 a.m. to      JPL’s help desk provides
                                      days a week.                     6:00 p.m. on workdays.           wider time coverage.

Systems administration                Included                         Included                         None

Local Area Network connectivity       Included                         Included                         None

Monthly seat price
                                      $273 1                           $1712                            $102

    1
      The JPL seat price is based on a Compaq EN 550 computer ($97) plus a Compaq P110 21-inch monitor ($36) plus
    Normal Assistance Service ($140).
    2
      The ODIN seat price at Johnson, Kennedy, and Marshall is based on the average monthly cost of a Scientific and
    Engineering 2 (SE2) seat.




                                                               10
            Appendix D. Desktop Outsourcing Contract at JPL

The following information pertains to the desktop and network services contract at JPL.

Contract Number:             961148

Contract Awarded By:         Jet Propulsion Laboratory (JPL), California Institute of
                             Technology

Outsourcing Contractor:      OAO Corporation

Contract Dates:              JPL issued a letter contract on November 14, 1997, and a
                             definitive contract on February 11, 1998.

Contract Type:               Fixed-price contract with fixed prices at the unit level

Period of Performance:       December 22, 1997, through December 31, 2002

Contract Ceiling Price:      $110 million

Contract Services and         The contractor shall provide all necessary resources, including
Pricing:                      but not limited to personnel, proximal and remote facilities,
                              transportation, computer hardware, software, documentation,
                              and all necessary equipment and support services. The primary
                              service categories are:

                                 •   Help desk
                                 •   System administration
                                 •   Computer hardware maintenance
                                 •   System replenishment

                              The monthly desktop seat price consists of two components: (1)
                              JPL pays the contractor a fixed monthly assistance service
                              charge of $140 per seat for help desk, system administration,
                              and hardware maintenance; and (2) JPL pays the contractor a
                              monthly charge (replenishment service charge) per seat for using
                              the contractor-provided computer hardware. This charge equals
                              the contractor’s actual invoice costs for the hardware and a fixed
                              dollar markup, divided by the hardware replenishment service
                              period of 36 months.




                                              11
                Appendix E. Summary of Prior Audit Coverage

The NASA Office of Inspector General has issued two final reports relating to the Outsourcing
Desktop Initiative for NASA. (Copies of the reports are available at
www.hq.nasa.gov/office/org/hq/issuedaudits.html.

“Delivery Order Placement Under Outsourcing Desktop Initiative Contracts,” Report
Number IG-99-003, November 10, 1998.

NASA can improve its readiness to place ODIN delivery orders by implementing an effective
program management process. Key documents such as the Program Commitment Agreement
(PCA) and program plan and an overall risk management process have not been approved and
put into effect as required by NASA policy. Improved program management will help NASA
identify and benefit from lessons learned from outsourcing and effectively manage ODIN
delivery order placement. We recommended that the NASA CIO submit an ODIN PCA to
the NASA Administrator for review and approval. We also recommended that the ODIN
Program Manager complete and execute a program plan for ODIN. Additionally, we
recommended that the ODIN Program manager establish a continuous risk management
process that would identify risk and its effects, prioritize risks for mitigation or elimination, and
maintain a risk management plan. Management concurred with the report recommendations
and took responsive actions.

“Outsourcing of Desktop Computers,” Report Number IG-98-029, September 14,
1998.

NASA had not ensured the adequacy or consistency of cost data to be used to place
outsourcing delivery orders. After completing the Business Case analysis, which supported
outsourcing, NASA updated the available cost data on outsourcing desktop computers, through
successive iterations, to support each phase of the competitive procurement process. NASA
used the updated data to assess the Agency-wide benefits of outsourcing. However, NASA
had not issued guidance on preparing reliable cost estimates in support of delivery order
placement. Without consistently prepared and reliable estimates of the costs of the Government
activities to be outsourced, the Centers may be unable to make well-informed decisions on the
type and extent of outsourcing services they should acquire, particularly with regard to services
other than general-purpose computing (for example, intra-Center communications). Also,
Centers may be unable to reliably compare the costs of doing business with eligible vendors or
to determine the total amount of savings actually achieved through outsourcing. We
recommended that the NASA CIO require Centers to develop Government cost estimates for
use in determining the type and extent of outsourcing services to be acquired. We also
recommended that the CIO issue detailed guidance for the Centers to use in developing their
cost estimates. Management concurred with the report recommendations and took responsive
actions.



                                                 12
Appendix F. Management’s Response




               13
Appendix F




             14
                        Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
R/Chief Information Officer Representative

NASA Centers

Director, Goddard Space Flight Center
Director, Johnson Space Center
Director, Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, Marshall Space Flight Center
 Head, Program Management Council Working Group
Director, NASA Management Office, Jet Propulsion Laboratory

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Director, Office of Management and Budget
Deputy Director of Management, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget




                                            15
Appendix G

Non-NASA Federal Organizations and Individuals (Cont.)

Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             16
                 NASA Assistant Inspector General for Auditing
                                Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title:

Report Number:                                     Report Date:




Circle the appropriate rating for the following statements.

                                                  Strongl                              Strongl
                                                     y      Agree   Neutra   Disagre   y         N/A
                                                   Agree              l         e      Disagre
                                                                                          e
1. The report was clear, readable, and               5       4        3         2          1     N/A
   logically organized.
2. The report was concise and to the point.          5       4        3         2          1     N/A

3. We effectively communicated the audit             5       4        3         2          1     N/A
   objectives, scope, and methodology.
4. The report contained sufficient information       5       4        3         2          1     N/A
   to support the finding(s) in a balanced and
   objective manner.

Overall, how would you rate the report?

     Excellent          Very Good                Good               Fair            Poor

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

        Congressional Staff                        Media
        NASA Employee                              Public Interest
        Private Citizen                            Other:
        Government:              Federal:             State:         Local:


May we contact you about your comments?

Yes:                                No:

Name:


Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

Howard Kwok, Auditor-in-Charge

Robert A. Powell, Auditor

Rhoda A. Southerland, Auditor

Nancy C. Cipolla, Report Process Manager

Betty G. Weber, Operations Research Manager

Barbara J. Smith, Program Assistant
